U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Gregory L. Roberson v. United States of America,
S.Ct. No. 20-7972

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 4, 2021,
and placed on the docket on May 11, 2021. The government’s response is due on June 10, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7972
ROBERSON, GREGORY L.
USA

FREDERICK WILLIAM ULRICH
FEDERAL PUBLIC DEFENDER'S OFFICE
100 CHESTNUT STREET
3RD FLOOR
HARRISBURG, PA 17101
717-782-2237
FRITZ_ULRICH@FD.ORG

